1a
Appendix A
775 Fed.Appx. 249 (Mem)
This case was not selected for publication in West's
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 7th Cir.
Rule 32.1.
United States Court of Appeals, Seventh Circuit.
IN RE: Andrew W. SHALABY, Appellant.
No. 19-2369
Submitted August 1, 2019
Decided August 20, 2019
Rehearing En Banc Denied September 3, 2019
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division. No. 18
D 21, Rebecca R. Pallmeyer, Chief Judge.
Attorneys and Law Firms
Andrew W. Shalaby, Attorney, Pro Se
Before WILLIAM J. BAUER, Circuit Judge, DAVID
F. HAMILTON, Circuit Judge, MICHAEL B.
BRENNAN, Circuit Judge

2a
Appendix A
ORDER
Andrew W. Shalaby seeks review of an order of the
Executive Committee of the Northern District of
Illinois denying his admission to the general bar of
that court and requiring that he not reapply for at
least one year. Because the Executive Committee’s
order is reasonable in light of Shalaby’s previous
conduct, we affirm the order.
Shalaby is an attorney licensed to practice in
California. He was admitted to appear pro hac vice
before the Northern *250 District of Illinois in Bailey
v. Worthington, 16-cv-07548, a products-liability suit.
Opposing counsel moved to revoke Shalaby’s pro hac
vice admission on the basis that Shalaby’s application
failed to disclose that he had been disciplined by the
United States Bankruptcy Court for the Northern
District of California. See In re Nakhuda, No.
14-41156-RLE, 2015 WL 1943450 (Bankr. N.D. Cal.
2015) aff’d in part, 544 B.R. 886 (B.A.P. 9th Cir.
2016), aff’d, 703 F. App'x 621 (9th Cir. 2017).
The district judge issued a show-cause order
demanding that Shalaby explain why his admission
should not be revoked on the basis of his
misrepresentations and because of false statements
he had made about the magistrate judge presiding
over the case. (Shalaby repeatedly stated that the
magistrate judge had a conflict and should have
recused himself under 28 U.S.C. § 455(b)(2), even

3a
Appendix A
though the magistrate judge explained that Shalaby
was working from incorrect information about the
dates of his employment with a defense law firm in
the Bailey case.) The district judge explained in an
unusually detailed order why he found Shalaby’s
defense of his behavior unpersuasive and revoked
Shalaby’s pro hac vice admission.
While those proceedings were ongoing in the Bailey
case, Shalaby petitioned for admission to the general
bar of the Northern District of Illinois. See N.D. ILL.
L. R. 83.10. He again represented that he had not
been disciplined by any court. The Executive
Committee denied Shalaby’s petition for admission.
Shalaby tried again less than a year later, but the
Executive Committee denied his request because the
new application did not provide any reason to
reconsider its recent denial. It also ordered that
Shalaby could not reapply for admission for one year,
and that he may not appear or submit filings in any
case before the court as the lawyer for another person.
On appeal from that order, Shalaby argues that the
Executive Committee wrongly relied on the district
court’s revocation of his pro hac vice admission and
that the Executive Committee’s order infringes his
free-speech rights. Shalaby also contends that some
of the behavior that gave rise to his discipline was
appropriate; he still maintains that the magistrate
judge should have recused himself.

4a
Appendix A
We note at the outset that we have jurisdiction over
this appeal because filing restrictions and denial of
bar membership are judicial, not administrative, in
nature. See In re Chapman, 328 F.3d 903, 904 (7th
Cir. 2003); In re Palmisano, 70 F.3d 483, 484–85 (7th
Cir. 1995).
Shalaby contends that the Committee erred by
relying on the district judge’s order revoking his pro
hac vice admission in the Bailey case because that
order is “not final” and that he intends to appeal the
order at the conclusion of the case. But the district
court’s Executive Committee has broad authority to
regulate the attorneys who seek to practice before it.
See Frazier v. Heebe, 482 U.S. 641, 645, 107 S.Ct.
2607, 96 L.Ed.2d 557 (1987). The district judge’s order
in Bailey revoking Shalaby’s pro hac vice admission is
thorough; the Committee did not err in taking it into
consideration.
Shalaby’s argument that his discipline violates his
free-speech rights fares no better. The First
Amendment did not give him a constitutional right to
make false statements in his bar applications. Also,
federal courts may prohibit attorneys from making
“false accusations that bring the judicial system into
disrepute.” Palmisano, 70 F.3d at 487. Shalaby’s false
statements and accusations, which the district court
reviewed carefully and found to have been made
recklessly, “do not enjoy constitutional *251
protection.” Id. at 487–88 (citing Garrison v.

5a
Appendix A
Louisiana, 379 U.S. 64, 75, 85 S.Ct. 209, 13 L.Ed.2d
125 (1964)).
The Executive Committee did not abuse its discretion
in denying Shalaby’s application for admission to its
general bar. Accordingly, IT IS ORDERED that the
Executive Committee’s order is AFFIRMED.
All Citations
775 Fed.Appx. 249 (Mem)

6a
Appendix B
18 D 21
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
(Before the Executive Committee)
In the Matter of Andrew Shalaby
An Attorney
ORDER
Earlier this year, Andrew Shalaby filed an
application and an accompanying supplement in
support of a request for admission to the General Bar
of this Court. On March 11, 2019, the Executive
Committee denied the application. The Committee
found that Ms. Shalaby had violated American Bar
Association Model Rule of Professional Conduct Rule
8.2(a), which states: "A lawyer shall not make a
statement that the lawyer knows to be false or with
reckless disregard as to its truth or falsity concerning
the qualifications or integrity of a judge." The
Committee further found that Mr. Shalaby did not
meet the character and fitness requirements to join
the General Bar. Local Rule 83.10(a). Those findings
were based on the order issued in Bailey v. Benzomatic
et al., 16 C 7548. R. 402 at 14-16.

7a
Appendix B
On April 1, 2019, Mr. Shalaby submitted his
Motion for Provisional Admission to Respond to
$250,000 Sanction Motions. On May 8, 2019, the
Executive Committee entered an order denying Mr.
Shalaby's motion for provisional admission without
prejudice.
On May 16, 2019, Mr. Shalaby submitted a
letter to the Executive Committee, asking that they
review his petition for admission into the General Bar,
submitted on April 10, 2019, and supplemented on
April 22, 2019.
The Executive Committee met on June 6, 2019
and reviewed Mr. Shalaby's letter, General Bar
petition, and supplemental information. Nothing in the
submissions provided a valid basis to reconsider the
prior denial of admission into the General Bar.
IT IS HEREBY ORDERED that Mr. Shalaby's
April 10, 2019 General Bar petition is denied.
Because this is his second petition in just a few
months, Mr. Shalaby may not reapply for General Bar
admission for at least one year from the date of this
order. Furthermore, Mr. Shalaby shall not appear or
submit any filings in any case in this Court as the
lawyer for another person, because he is not a member
of its General Bar. If Mr. Shalaby is required to defend
himself against motions targeting him personally, then
he may represent himself(but not others) in this Court

8a
Appendix B
on a pro se basis.
IT IS FURTHER ORDERED that Mr. Shalaby,
who has frequently contacted the Clerk's Office staff,
shall discontinue these contacts other than in writing
and by first-class mail.
ENTER:
Ruben Castillo
Chief Judge
DATED: June 13, 2019

9a
Appendix C
2019 WL 410419
Only the Westlaw citation is currently available.
United States District Court, N.D. Illinois, Western
Division.

Kurtis M. BAILY, Plaintiff,
v.
BERNZOMATIC, et al., Defendants.
16 CV 07548
Signed 02/01/2019
Attorneys and Law Firms
Andrew W. Shalaby, Law Office of Andrew W
Shalaby, El Cerrito, CA, David Wei Chen, Law Office
Of David W. Chen P.C., Oakland, CA, John M.
Nelson, Attorney at Law, Rockford, IL, for Plaintiff.
James W. Ozog, Goldberg Segalla, LLP, Chicago, IL,
Jason J. Granskog, Richard Allen Ergo, Bowles and
Verna LLP, Walnut Creek, CA, for Defendants.

10a
Appendix C
ORDER
Philip G. Reinhard, United States District Court
Judge
[*1] For the reasons stated below, defendants'
motion [368] to file a supplemental exhibit is denied.
Attorney Shalaby’s motion [365] to file a surreply is
granted and the surreply [365-1] is deemed filed.
Attorney Shalaby’s motion [387] requesting
confirmation that the requirement for local counsel
for plaintiff to sign all filings made on behalf of
plaintiff does not apply to documents filed concerning
Attorney Shalaby’s PHV admission is granted.
Attorney Shalaby’s motion [401] for leave to file
supplemental documents and a related request to
take judicial notice is denied. Attorney Shalaby’s pro
hac vice admission in this case is revoked.
Defendants' objection [343] to Magistrate Judge
Johnston’s order [333] is denied as moot. The court
requests Magistrate Judge Johnston schedule a
status conference with attorneys Chen and Nelson
and defense counsel as soon as possible.
STATEMENT-OPINION
In its order [382] of September 4, 2018 (“2018
Show Cause Order”), the court ordered Attorney
Shalaby to show cause why he should not have his pro
hac vice (“PHV”) admission revoked or be otherwise
sanctioned for certain conduct which arose after

11a
Appendix C
Magistrate Judge Johnston’s entry of an order [333]
on defendants' motion to revoke Attorney Shalaby’s
pro hac vice admission and the filing of objections
thereto. Mr. Shalaby filed a response [384] to the
2018 Show Cause Order on September 12, 2018. He
also filed his declaration requesting judicial notice of
appellate brief [385] on September 14, 2018.
Thereafter, he filed: a supplemental response “further
addressing matter of Magistrate Judge Johnston”
[386] on September 15, 2018, a second supplemental
response re “Judge Efremsky’s order of September 17,
2018” [389] on September 17, 2018, his declaration
requesting judicial notice of BAP appellate brief [390]
on September 18, 2018, a declaration requesting
judicial notice of variance in electronic signature
procedures of the federal courts' civil and bankruptcy
divisions [391] on October 12, 2018, an image from
Bloomberg.com of Magistrate Judge Johnston’s profile
[398] on November 5, 2018, and a motion for leave to
file supplemental documents which included a
request for judicial notice [401] on December 28,
2018.1
1

Attorney Shalaby also filed a motion [387] requesting
confirmation that the requirement for local counsel for plaintiff to
sign all filings made on behalf of plaintiff does not apply to
documents filed concerning Attorney Shalaby’s PHV admission.
This motion is granted. Attorney Shalaby also has a motion [365]
pending to file a surreply which is granted. The surreply [365-1]
is deemed filed. Defendants have a motion [368] pending to file a
supplemental exhibit. The exhibit is a copy of a document filed by
Attorney Shalaby in Peralta v. Bernzomatic, 17cv3195-JJT as

12a
Appendix C
[*2] The 2018 Show Cause Order specifically
ordered Attorney Shalaby to address the following:
1) His repeated misstatements of the
content of Judge Efremsky’s order
entered May 8, 2018 (“May 8th Order”).
2) His repeated false statements that
Magistrate Judge Johnston was
employed by Holland & Knight at the
time Holland & Knight attorneys were
representing the defendants in Attorney
Shalaby’s personal litigation against
them and that Magistrate Judge
Johnston refused to disqualify himself in
the current case though such
disqualification was mandated by 28
U.S.C. § 455(b)(2) due to that
employment.
3) His statement in his general bar
application that he believed the State
Bar of California only made an inquiry
rather than conducted an investigation
of him when previously in this case he

docket number 82 in that case. The proposed exhibit is a public
record, which the court has already referenced in a previous order,
and need not be filed as an exhibit here to be considered.
Accordingly, the motion [368] to file the supplemental exhibit is
denied.

13a
Appendix C
referred to the state bar matter as an
investigation and his request for judicial
notice to the 9th Circuit and the
documents attached thereto indicate the
matter was an investigation.
As discussed in the 2018 Show Cause Order,
United States Bankruptcy Judge Efremsky had
imposed sanctions on Attorney Shalaby in In re
Nakhuda, No. 14-41156-RLE, 2015 WL 1943450
(Bankr. N.D. Cal. 2015). These sanctions included (1)
a monetary penalty imposed pursuant to Fed. R.
Bankr. P. 9011 of $8,000; (2) a suspension imposed
pursuant to Fed. R. Bankr. P. 9011 from the practice
of law in the bankruptcy courts of the Northern
District of California until he completed 24 hours of
continuing legal education in bankruptcy law plus 3
hours of continuing legal education in ethics (“CLE
Provision”); and (3) a suspension pursuant to local
rule of his e-filing privileges until he completed ECF
retraining (“ECF Provision”). Judge Efremsky also
ordered disgorgement of attorney’s fees based on 11
U.S.C. § 329. On appeal to the Ninth Circuit
Bankruptcy Appellate Panel (“BAP”), the fee
disgorgement and the suspension imposed by the ECF
Provision were affirmed, the monetary penalty
imposed pursuant to Fed. R. Bankr. P. 9011 was
explicitly reversed and the CLE Provision (also
imposed pursuant to Fed. R. Bankr. P. 9011), though
not directly addressed, appears to have been
implicitly reversed. In re Nakhuda, 544 B.R. 886

14a
Appendix C
(B.A.P. 9th Cir. 2016). The BAP decision subsequently
was affirmed by the Ninth Circuit Court of Appeals.
In re Nakhuda, 703 Fed. Appx. 621 (9th Cir. 2017). In
affirming the BAP’s decision concerning the
suspension imposed by the ECF Provision the Ninth
Circuit stated:
“The BAP properly concluded that the
bankruptcy court did not abuse its
discretion when it suspended Shalaby's
electronic case filing privileges until he
had undergone electronic case filing
training by the clerk's office. The local
rules of the United States Bankruptcy
Court for the Northern District of
California give the bankruptcy court the
authority to impose sanctions on
attorneys practicing before it for failure
to comply with the court's local rules.
Bankr. N.D. Cal. R. 9011-1. The local
rules further provide that when an
electronically filed document requires
the signature of a third party, such as a
debtor, the document must contain the
original ink signature of the third party
or a copy of the original ink signature.
Bankr. N.D. Cal. R. 5005-2(d).
[*3] The record supports the
bankruptcy court's finding that
Shalaby's continued failure to obtain the
debtor's original ink signature on

15a
Appendix C
documents electronically filed with the
court violated the local rules. The error
was brought to Shalaby's attention, yet
he continued to violate the rules.”
In re Nakhuda, 703 Fed. Appx. 621, 622 (9th Cir.
2017).
Attorney Shalaby filed a petition for rehearing
with the Ninth Circuit (Dkt. No. 27-1 in Case No.
16-60017) in which he asserted the Ninth Circuit
erred when it stated in its decision that Attorney
Shalaby’s “failure to obtain the debtor’s original ink
signature on documents electronically filed” “was
brought to Shalaby’s attention, yet he continued to
violate the rules.” He argued “[t]here was no
allegation anywhere in the record stating or
suggesting that the error was brought to Shalaby’s
attention, yet he continued to violate the rules.” His
petition for rehearing was denied by the Ninth Circuit
on November 30, 2017 and the mandate issued on
December 14, 2017. Dkt. Nos. 28, 29 in Case No.
16-60017.
On April 14, 2018, Attorney Shalaby filed a
“Motion to Amend Pre-Appeal Sanction and
Suspension Order with Judge Efremsky. Judge
Efremsky’s May 8th Order is the ruling on that
motion.
In the 2018 Show Cause Order, this court noted
Attorney Shalaby had requested [346] that this court
take judicial notice of the May 8th Order entered by
Judge Efremsky. In this request Attorney Shalaby

16a
Appendix C
stated: “In this brief I am requesting only that the
Court take judicial notice of the relevant Judge’s
statement based on his personal knowledge, the
Ninth Circuit declined to reverse the ‘moot’
suspension portion of the subject order by way of a
‘clear error’ in the record, which is presented below.”
He further stated: “On that order he [Judge
Efremsky] confirms the error of the Ninth Circuit,
based on his ‘personal knowledge,’ which I have
already disclosed to the Court.” Attorney Shalaby
quoted paragraph 16 of the May 8th Order as making
clear Judge Efremsky’s “ ‘personal knowledge’ of this
error” made by the Ninth Circuit.2
In the 2018 Show Cause Order, this court
found that these statements by Attorney Shalaby
were a gross misstatement of Judge Efremsky’s May
8th Order because “[p]aragraph number 16 of the [May
8th Order] quoted above by Attorney Shalaby is not a
finding by Judge Efremsky that his personal
knowledge confirms the alleged error. Rather, it is
merely a recitation of Attorney Shalaby’s argument
on the point. Instead, what Judge Efremsky found
2

Paragraph 16 of the May 8th Order reads as follows:
“Like the petition for rehearing before the Ninth Circuit, the
Motion to Amend repeats the contention that this statement in
the Ninth Circuit Memorandum Decision is factually erroneous as
Mr. Shalaby’s own declaration shows, and as this court’s ‘personal
knowledge’ confirms. The Motion to Amend also claims that it ‘is
not a motion to reverse an appellate decision’ but a ‘proper Rule
60(b) motion to amend and strike the suspension provisions’ on
the grounds that ‘this mistake is known’ to this court.”

17a
Appendix C
was: ‘the Ninth Circuit found that the record
supported this court’s [Judge Efremsky’s] finding that
there had been repeated violations of the Local Rules
regarding obtaining and keeping ink signatures.’ ”
In his response [384] to the 2018 Show Cause
Order, Attorney Shalaby argues he did not
misrepresent the content of Judge Efremsky’s May 8th
Order. He states: “In my view, any interpretation
contrary to footnote 2 of Judge Efremsky’s order
would be incorrect, because his words ‘implicitly
reversed’ express his understanding that the Ninth
Circuit’s repeat violation allegation is factually
incorrect.3 It is therefore my belief that there can be
no other interpretation.” (emphasis in original).
Attorney Shalaby contends: “This ‘implicitly reversed’
observation by Judge Efremsky is the statement of
his ‘personal knowledge’ that the Ninth Circuit’s
repeat violation allegation is factually incorrect and
unsupported by the record. Any other interpretation
would be impossible because the BAP’s decision
clearly discloses that Judge Efremsky did not find
that I acted ‘knowingly or intentionally.’ ” (emphasis

3

Footnote 2 of Judge Efremsky’s order stated: “This
court’s Rule 9011 conclusion was reversed by the BAP. The Rule
9011 sanction included the $8,000 payment to the court and the
CLE Provision. The BAP was silent as to the CLE Provision but
it was at least implicitly reversed. Mr. Shalaby could have asked
the BAP for clarification or to vacate the CLE Provision but the
BAP docket does not show that he did.” Dkt. No. 325, In re
Nakhuda, No. 14-41156-RLE (Bankr. N.D. Cal. May 8, 2018).

18a
Appendix C
in original) Attorney Shalaby then quotes the BAP
opinion which notes the “bankruptcy court did not
find Shalaby acted knowingly or intentionally” and
states “[i]n sum, the bankruptcy court erred in
sanctioning Shalaby for his conduct under Rule 9011
because it applied the wrong legal standard for sua
sponte sanctions and its factual findings do not
support – and in fact foreclose – the heightened
standard of ‘akin to contempt’. Accordingly, the court
abused its discretion in issuing sanctions under Rule
9011. In re Nakhuda, 544 B.R. 886, 901-902 (B.A.P.
9th Cir. 2016), aff'd, 703 Fed. Appx. 621 (9th Cir.
2017).”
[*4] Attorney Shalaby continues: “Furthermore,
as the BAP explains in its decision, the imposition of
sanctions requires the elements of knowledge and
intent. Therefore, the only way the Ninth Circuit
could ‘affirm’ would be upon a finding of knowing and
intentional misconduct. The Ninth Circuit makes this
finding, in direct contradiction with the BAP decision
it was reviewing: ‘The error was brought to Shalaby’s
attention, yet he continued to violate the rules.’ In re
Nakhuda, 703 Fed. Appx. 621, 622 (9th Cir. 2017). It
is therefore beyond dispute that the Ninth Circuit’s
repeat violation allegation was factually incorrect,
and also formed the very basis for its incorrect
decision.” (emphasis in original)
Attorney Shalaby then cites to the portion of
the hearing before Judge Efremsky held November
20, 2014 in which Attorney Shalaby stated that the
failure to obtain and keep an original (“wet”)

19a
Appendix C
signature was “an innocent mistake as to one
procedure that has since been corrected that will
never happen again.” He then states “[t]hese are the
facts which are within Judge Efremsky’s ‘personal
knowledge,’ which he was trying to advise this Court
about on his order. With this information, Judge
Efremsky’s order should be easier to understand. On
paragraph 16, Judge Efremsky identifies his ‘personal
knowledge’ following insertion of the comma: ‘16. Like
the petition for rehearing before the Ninth Circuit,
the Motion to Amend repeats the contention that this
statement in the Ninth Circuit Memorandum is
factually erroneous as Mr. Shalaby shows, and as this
court’s ‘personal knowledge’ confirms.’ ”
Attorney Shalaby concludes this portion of his
response as follows: “The Court should not impose
sanctions for the same reason sanctions were reversed
by the BAP, namely there was no knowing and
intentional misconduct on my part. Whether I am
correct in my interpretation of Judge Efremsky’s
order or not, the record and appellate record
themselves prove substantively that I am correct in
representing to this Court that the Ninth Circuit’s
repeat violation allegation is factually incorrect, and
that Judge Efremsky himself recognizes that the CLE
provision based on the Ninth Circuit’s erroneous
repeat violation allegation was ‘at least implicitly
reversed.’ ”
On September 17, 2018, in response to a
motion by Attorney Shalaby to amend sanctions order
directed to Judge Efremsky in the Nakhuda

20a
Appendix C
bankruptcy case, Judge Efremsky entered an order
(“September 17th Order”) denying the requested
relief.4 In the September 17th Order, Judge Efremsky
states:
“This court now states in the clearest
terms possible that Mr. Shalaby’s
interpretation of the May 8 Order is a
gross misstatement of the May 8 Order.
To the extent it needs repeating, the
Ninth Circuit stated that the record
supported this court’s finding that there
had been repeated violations of the
Local Rules regarding obtaining and
keeping ink signatures, that this error
was brought to Mr. Shalaby’s attention,
yet he continued to violate the Local
Rules. Further, the Ninth Circuit stated
that suspending Mr. Shalaby’s filing
privileges until he received training was
an appropriate exercise of this court’s
discretion.”
A footnote (n. 3), in the September 17th Order, states:
“The trustee’s appellee brief explained
the underlying facts and his excerpts of

4

A copy of the September 17th Order was filed by
Attorney Shalaby in this case as Dkt No. 389-1.

21a
Appendix C
the record substantiated them. Ninth
Cir. Dkt. No. 11, p. 25-27. Beyond doubt,
the record showed that Mr. Shalaby was
aware in June 2014 that he had
consistently violated the Local Rules
regarding signatures and it was not
until some six months later that he even
began to correct his shoddy practices in
this case. The court does not know if he
corrected his mistakes in any of the
other bankruptcy cases in which he is
counsel.”
[*5] Along with filing the September 17th Order
here, Attorney Shalaby filed a second supplemental
response [389] addressing the September 17th Order.
In it he states:
“Judge Efremsky has erred, because Mr.
Shalaby did not misinterpret or misstate
the May 8 order with respect to what
the Ninth Circuit ‘stated.’ This Court
never alleged that Mr. Shalaby was
making any misstatement with regard
to what the Ninth Circuit Court of
Appeals ‘stated.’ Mr. Shalaby also never
alleged that the Ninth Circuit did not
make the repeat violation allegation.
The issue is whether Judge Efremsky’s
May 8, 2018 order expressed his
personal knowledge that the Ninth

22a
Appendix C
Circuit’s repeat violation allegation was
factually incorrect. Judge Efremsky’s
9/17/18 order is unresponsive to this
issue because it states only that other
individuals (the Ninth Circuit judges
and perhaps the trustee) were the ones
that made the allegations.” (emphasis in
original).
The second supplemental response further states:
“The issue is not what the trustee may
have stated or implied on his appellate
brief. Nor is the issue that ‘beyond
doubt’ Mr. Shalaby had failed to comply
with the wet signature requirement
until June 2014 (because Mr. Shalaby
was unaware that the rule existed).
Rather, the issue is whether Judge
Efremsky himself made the ‘finding’
that once the ‘wet signature’
noncompliance was brought to Mr.
Shalaby’s attention, he ‘continued to
violate the rules’, because it is this
Ninth Circuit’s error which is at issue:
‘The record supports the
bankruptcy court’s
finding that Shalaby’s
continued failure to obtain
the debtor’s original ink

23a
Appendix C
signature on documents
electronically filed with the
court violated the local
rules. The error was
brought to Shalaby’s
attention, yet he
continued to violate the
rules. (Emphasis added.)
In re Nakhuda, 703 F.
App'x. 621, 622 (9th Cir.
2017).’
Judge Efremsky falls short of stating that he himself
made a finding that the ‘error was brought to Mr.
Shalaby’s attention, and yet he continued to violate
the rules.’ Judge Efremsky’s 9/17/18 order does not
state he made such a finding. However, the BAP
made the actual and correct finding, which is as
follows:
The bankruptcy court did not find
Shalaby acted knowingly or
intentionally [...] (Emphasis added.) In
sum, the bankruptcy court erred in
sanctioning Shalaby for his conduct
under Rule 9011 because it applied the
wrong legal standard for sua sponte
sanctions and its factual findings do not
support – and in fact foreclose – the
heightened standard of ‘akin to
contempt’. Accordingly, the court abused

24a
Appendix C
its discretion in issuing sanctions under
Rule 9011. In re Nakhuda, 544 B.R. 886,
901-902 (B.A.P. 9th Cir. 2016), aff'd, 703
F. App'x. 621 (9th Cir. 2017)’
The Ninth Circuit’s repeat violation allegation
therefore directly contradicts with the true and
correct facts which the BAP disclosed on the face of
its memorandum of decision, rendering the repeat
violation allegation ‘clearly erroneous.’ ”
Attorney Shalaby then asserts in his second
supplemental response that Judge Efremsky’s
statement in footnote 2 of his May 8, 2018 order5
“unequivocally evidences his ‘personal knowledge’
that the repeat violation allegation did not occur.”
Attorney Shalaby states:
[*6] “Judge Efremsky’s observation that
the CLE provision was ‘at least
implicitly reversed’ was because of the
reason the BAP reversed his sanction
order. The BAP reversed his sanction
order because the elements of
‘knowledge and intent’ were not found
by Judge Efremsky himself. This does
mean that it was not possible for the
‘error’ pertaining to the ‘wet signature’
rule noncompliance to have been

5

Quoted above in footnote 3.

25a
Appendix C
brought to Mr. Shalaby’s attention, and
‘yet he continued to violate the rules.’ In
other words, Mr. Shalaby’s
representation that Judge Efremsky’s
order reflects his awareness, based on
his personal knowledge, that the repeat
violation allegation is incorrect, remains
accurate.”
As the foregoing amply demonstrates, Attorney
Shalaby disputes that he misstated the content of
Judge Efremsky’s May 8th Order. He also disputes
Judge Efremsky’s September 17th Order in which
Judge Efremsky finds Attorney Shalaby misstated
the May 8th Order.
Attorney Shalaby persists in claiming that
paragraph 16 of the May 8th Order included a finding
by Judge Efremsky, based on Judge Efremsky’s
personal knowledge, that the Ninth Circuit made a
factually incorrect statement in its order when it
stated (concerning Attorney Shalaby’s failure to
obtain original ink signatures as required by local
rule) that “[t]he error was brought to Shalaby's
attention, yet he continued to violate the rules.”
However, it is obvious that paragraph 16 of the May
8th Order6 is simply a statement of Attorney Shalaby’s
argument in his Motion to Amend. Not only is
paragraph 16 not a finding by Judge Efremsky that

6

Quoted above in footnote 2.

26a
Appendix C
the Ninth Circuit committed this asserted error, but
footnote 3 of the May 8th Order is an express
statement by Judge Efremsky that the record
disproved Attorney Shalaby’s contention of error.
Paragraph 13 of the May 8th Order states:
“The Motion to Amend asks the court to
‘strike’ the Suspension Provisions from
the Sanctions Order. It argues, as did
the petition for rehearing, that the
Ninth Circuit’s factual finding of repeat
violations is erroneous because there
was no ‘continued failure’ to obtain
signatures in that this failure had
occurred only once – in this Nakhuda
chapter 7 – and it had been promptly
corrected.”
A footnote (footnote 3) was inserted by Judge
Efremsky after the word “corrected” in the last
sentence of paragraph 13. That footnote reads as
follows: “The record in this court and the appellate
record disprove this.” Judge Efremsky’s May 8th
Order’s footnote 3 makes clear he did not agree with
Attorney Shalaby that the Ninth Circuit had erred.
Attorney Shalaby contends the May 8th Order’s
“Footnote 3 is not very clear because it does not nexus
the word ‘this’ to a subject, leaving paragraph 13 up
to varying interpretations. However, this is remedied
by footnote 2. Footnote 2 of Judge Efremsky’s order
states: This court’s Rule 9011 conclusion was reversed

27a
Appendix C
by the BAP. The Rule 9011 sanction included the
$8,000 payment to the court and the CLE Provision.
The BAP was silent as to the CLE Provision but it
was at least implicitly reversed.
This ‘implicitly reversed’ observation by
Judge Efremsky is the statement of his
‘personal knowledge’ that the Ninth
Circuit’s repeat violation allegation is
factually incorrect and unsupported by
the record. Any other interpretation
would be impossible because the BAP’s
decision clearly discloses that Judge
Efremsky did not find that I act[ed]
‘knowingly or intentionally’.”
But, there is no possible varying interpretation.
The “this” which Judge Efremsky says the record
disproves is clearly Attorney Shalaby’s Motion to
Amend’s statement that “the Ninth Circuit’s factual
finding of repeat violations is erroneous because there
was no ‘continued failure’ to obtain signatures in that
this failure had occurred only once – in this Nakhuda
chapter 7 – and it had been promptly corrected.”
Nothing in footnote 2 of the May 8th Order leads to a
different conclusion. Footnote 2 deals with the BAP’s
ruling concerning sanctions imposed by Judge
Efremsky under Fed. R. Bankr. P. 9011. The ECF
Provision was not imposed pursuant to Fed. R. Bankr.
P. 9011. It was imposed under a local bankruptcy
rule. As Judge Efremsky notes in the May 8th Order’s

28a
Appendix C
footnote 2: “The Rule 9011 sanction included the
$8,000 payment to the court and the CLE Provision.”
The CLE Provision and the ECF Provision were
distinct provisions and imposed under the authority
of separate rules. The CLE Provision (which Judge
Efremsky believed was at least implicitly reversed)
was imposed under Fed. R. Bankr. P. 9011. The ECF
Provision (which was specifically upheld by the BAP)
was imposed under the bankruptcy court’s local rules.
It was in its consideration of the sanctions entered
under Rule 9011 that the BAP noted that Judge
Efremsky “did not find Shalaby acted knowingly or
intentionally, but that at a minimum, his conduct was
negligent,” In re Nakhuda, 544 B.R. at 901-02, and
that Judge Efremsky’s findings did not demonstrate
Attorney Shalaby’s conduct was “akin to contempt.”
Id. The reversal of the sanctions imposed under Rule
9011 (monetary penalty and CLE Provision) and the
factual standard applied by the BAP in analyzing and
reversing the imposition of sanctions under Rule 9011
simply has nothing to do with the ECF Provision.
Accordingly, Judge Efremsky’s footnote 2 in the May
8th Order, has nothing to do with his view of the
correctness of the Ninth Circuit’s statement
concerning the ECF Provision that “[t]he error was
brought to Shalaby's attention, yet he continued to
violate the rules.”
[*7] Also, as detailed by this court in the 2018
Show Cause Order, the May 8th Order found, in its
law of the case analysis, that the Ninth Circuit’s
statement was not clearly erroneous. Judge Efremsky

29a
Appendix C
stated: “The Ninth Circuit found that the record
supported this court’s finding that there had been
repeated violations of the Local Rules regarding
obtaining and keeping ink signatures. This is the law
of the case.” Judge Efremsky went on to state: “The
court has discretion to depart from the law of the case
if (1) the first decision was clearly erroneous; (2) an
intervening change in the law has occurred; (3) the
evidence on remand is substantially different; (4)
other changed circumstances exist; or a manifest
injustice would otherwise result.” He then stated “the
first three exceptions are absent.” Since “the first
decision was clearly erroneous” is one of the first
three exceptions listed, Judge Efremsky found clear
error was absent. Judge Efremsky’s finding is the
exact opposite of what Attorney Shalaby represented
it to be.
The 2018 Show Cause Order also raised
Attorney Shalaby’s repeated false statements that
Magistrate Judge Johnston was employed by Holland
& Knight at the time Holland & Knight attorneys
were representing the defendants in Attorney
Shalaby’s personal litigation against them and that
Magistrate Judge Johnston refused to disqualify
himself in the current case though such
disqualification was mandated by 28 U.S.C. §
455(b)(2) due to that employment. These false
statements concerning Magistrate Judge Johnston
were made by Attorney Shalaby in documents filed
March 6, 2018 and April 14, 2018 in Shalaby v.
Bernzomatic, et al., No. 11 cv 68 in the United States

30a
Appendix C
District Court for the Southern District of California,
on June 12, 2018 and in Peralta v. Bernzomatic, 17 cv
3195-JJT in the United States District Court for
Arizona and are set forth in the 2018 Show Cause
Order on pages 13-15.
Magistrate Judge Johnston had conducted a
hearing on November 14, 2017 on Attorney Shalaby’s
motions [208] [213] to disqualify Magistrate Judge
Johnston pursuant to 28 U.S.C. § 455(b)(2).
Magistrate Judge Johnston denied the motions
because his employment with Holland & Knight had
ended prior to a Holland & Knight attorney entering
her appearance in Shalaby v. Bernzomatic.
In his response [384] to the 2018 Show Cause
Order, Attorney Shalaby acknowledges that his
statements that Magistrate Judge Johnston was
employed by Holland & Knight at the time Holland &
Knight attorneys were representing the defendants in
Attorney Shalaby’s personal litigation against them
and that Magistrate Judge Johnston refused to
disqualify himself in the current case though such
disqualification was mandated by 28 U.S.C. §
455(b)(2) due to that employment were false. His
response states:
“During the 11/14/17 hearing I was not
able to take in and understand Judge
Johnston’s employment date disclosure,
and had no memory of the disclosure at
all until I read this Court’s 9/4/18 OSC
and downloaded and reviewed the

31a
Appendix C
transcript.7 Obviously had I known that
Judge Johnston left the HK firm two
months before it substituted into my
San Diego action, I would not have
stated otherwise on the pleadings
referenced by this Court. Instead, I
would have stated my concerns over the
fact that then-attorney Mr. Johnston
continued to partner-up with Holland &
Knight in cases that spanned until
about the year 2012, because that
relationship also requires recusal under
28 U.S.C. § 455(b)(2).”8
[*8] He acknowledges he never reviewed the
transcript of the hearing on the disqualification
motion until well after making these statements. The
statements made in April and June 2018 were made
after the doctor’s note had been filed in this case
(footnote 7 above) stating that any medications

7

Attorney Shalaby had been dealing with some health
issues and accompanying memory loss. The case was stayed [262]
February 5, 2018, approximately three months after the 11/14/17
recusal hearing, pending Attorney Shalaby completing certain
medical treatment and being released to return to work by his
doctor with the doctor also providing a statement that any
medications Attorney Shalaby was prescribed would not impair
his professional judgment. The required doctor’s statement was
filed on March 6, 2018.
8

The “partner-up” issue will be discussed below.

32a
Appendix C
Attorney Shalaby was prescribed would not impair
his professional judgment and the statement made in
the March 6, 2018 filing with Judge Battaglia was
made the same day the doctor’s note was filed.
Local Rule 83.50 of the United States District
Court for the Northern District of Illinois adopts the
American Bar Associations Model Rules of
Professional Conduct (“Model Rules”). Rule 8.2(a) of
the Model Rules provides: “A lawyer shall not make
a statement that the lawyer knows to be false or with
reckless disregard as to its truth or falsity concerning
the qualifications or integrity of a judge.” Attorney
Shalaby’s statements clearly were made with reckless
disregard as to their truth or falsity. A simple review
of the transcript of the hearing would have revealed
that Magistrate Judge Johnston had left Holland &
Knight prior to its attorney’s entry of appearance in
Attorney Shalaby’s personal action against
defendants. The transcript would also have revealed
that Magistrate Judge Johnston told Attorney
Shalaby how Magistrate Judge Johnston’s April 1,
2008 change of law firm could be confirmed by
searching his name in the Northern District of
Illinois' CM/ECF system and even identified one such
case for Attorney Shalaby.
Taking Attorney Shalaby at his word that at
the time of the hearing he “was not able to take in
and understand Judge Johnston’s employment date
disclosure, and had no memory of the disclosure” until
he downloaded and reviewed the transcript after
receiving the 2018 Show Cause Order, this does not

33a
Appendix C
excuse his failure to obtain and review the transcript
before making the statements several months after
the hearing. The facts were clearly presented by
Magistrate Johnston on the record at the hearing and
easily available to Attorney Shalaby had he bothered
to check them. For Attorney Shalaby to say, as he did
in 1) docket number 82 in Peralta v. Bernzomatic, 17
cv 3195-JJT in the United States District Court for
Arizona that:
“Magistrate Johnston was a supervising
attorney at the same law firm that
represented ‘Bernzomatic’ opposite Mr.
Shalaby’s action in San Diego years ago,
and his employment with the Holland &
Knight firm was at exactly the time Mr.
Shalaby’s case was pending. In fact, the
Holland & Knight firm continues to
represent the ‘non-existent’ entity,
‘Bernzomatic,’ in the San Diego prefiling
order proceedings. This Court therefore
knows that Judge Johnston should have
recused himself as a matter of law, and
refused to do so. Therein is the real
‘misconduct’ ”
and in 2) docket number 95 in Shalaby v.
Bernzomatic, et al., No. 11 cv 68 in the United States
District Court for the Southern District of California
that:

34a
Appendix C
“Magistrate Johnston was a supervising
attorney at the Holland and Knight law
firm during the pendency of my actions.
That is the firm before you now that
represented Bernzomatic in my
proceedings at this Court. As no doubt
you are aware, he was required as a
matter of law to recuse himself. See 28
U.S.C. § 455(a)(2). M.J. Johnston
refused to recuse himself”
and in 3) docket number 97 in the same case that:
“[t]he Magistrate Judge, Hon. Iain
Johnston ... was a supervising attorney
at the Holland and Knight law firm
during the pendency of this action, and
that law firm represented and continues
to represent Bernzomatic in this action
to this day. The Court is probably aware
that Magistrate Johnston should have
recused himself as a matter of law
(mandatory recusal as explained in the
pending brief), but he has not done so”
[*9] impugned the integrity of Magistrate Judge
Johnston with false statements in reckless disregard
for the easily discoverable falsity of those statements.
Attorney Shalaby’s response argues that
Magistrate Judge Johnston still violated 28 U.S.C. §
455(b)(2) by failing to recuse himself because, after he

35a
Appendix C
left Holland and Knight, Magistrate Judge Johnston
had appeared as co-counsel in some cases with a
Holland & Knight attorney, Jack Siegel. Attorney
Shalaby argues serving as co-counsel with a Holland
& Knight attorney falls within the ambit of the
language of 28 U.S.C. § 455(b)(2) which requires
disqualification by a judge “[w]here in private practice
he served as a lawyer in the matter in controversy, or
a lawyer with whom he previously practiced law
served during such association as a lawyer concerning
the matter, or the judge or such lawyer has been a
material witness concerning it.”9 Attorney Shalaby
states: “The Court should not revoke my PHV
admission for expressing my concerns and my belief
that Hon. Magistrate Johnston was and still is
required to recuse himself as a matter of law due to
his co-counsel relationship with Holland & Knight.
Sanctions should not be imposed for my expression of

9

The issue of serving as co-counsel with Attorney Siegel
after Magistrate Judge Johnston’s departure from Holland &
Knight was not raised in the written motions [208] [213] to
disqualify filed by Attorney Shalaby. However, Attorney Shalaby
orally raised a concern about Attorney Siegel during the
November 14, 2018 hearing. At the hearing he stated: “But there
were some concerns I had, pretty significant concerns, that left me
with a very strong fear and concern, that one of them may be some
of the cases you handled with Mr. Jack Siegel, a well-respected
attorney, who is now gone, and you continued to work with him at
the Holland & Knight firm, I think all the way until 2012, on
various matters. So I think you have an affinity for Mr. Siegel and
for the Holland & Knight firm.” [236, p.6]

36a
Appendix C
my belief and opinion.”
The first problem with this argument is that he
did not, in the California and Arizona court filings
express his concerns and belief that Magistrate Judge
Johnston was “required to recuse himself as a matter
of law due to his co-counsel relationship with Holland
& Knight.” What he said in those filings was that
Magistrate Judge Johnston was a supervising
attorney at Holland & Knight at the same time
Holland & Knight was representing defendants in
Attorney Shalaby’s personal action. His actual
statements were false.
Further, Attorney Shalaby is incorrect that
serving as co-counsel in unrelated matters with an
attorney from Holland & Knight required Magistrate
Judge Johnston’s disqualification. 28 U.S.C. §
455(b)(2) “mandates recusal only where a member of
the judge’s former law firm worked on the matter
while the judge was with the firm.” Hoang v. Ummel,
24 Fed. Appx. 613, 617 (7th Cir. 2001); see also,
Sphere Drake Ins. Ltd. v. All American Life Ins. Co.,
302 F.3d 617, 621 (7th Cir. 2002) (“no partner of
Mayer Brown served ‘during such association’ (that is,
while Jacks also was a partner) as a lawyer in this
dispute”); Culver v. City of Milwaukee, 277 F.3d 908,
912 (7th Cir. 2002) (“the firm did not represent the
union while the judge was a member of the firm”);
Old Republic Nat'l Title Ins. Co. v. Warner, No. 12 CV
91, 2013 WL 2403597, *3 (N.D. W. Va. May 31, 2013)
(“Section 455(b)(2), in other words, mandates recusal
... (2) where the judge’s former law partner, during

37a
Appendix C
the judge’s tenure with the firm, served as a lawyer
concerning the matter in controversy.”); Faulkner v.
National Geographic Soc'y, 296 F. Supp.2d 488,
490-91 (S.D. N.Y. 2003) (Section 455(b)(2) requires
recusal “if and only if, (1) the judge, while in private
practice, or another attorney in the same firm, (2)
during the judge’s tenure with the firm, (3) served as
a lawyer concerning the matter.”) In its research, the
court found no case in which the language of Section
455(b)(2) was construed to apply to a judge who was
a former member of a law firm and, who, after
withdrawing from that firm, had appeared as
co-counsel with a member of that firm in an unrelated
matter at the same time that a different member of
that firm was serving as a lawyer in the matter in
controversy. Attorney Shalaby did not cite any cases
in support of his position on this matter.
[*10] Attorney Shalaby’s response then raises
an additional reason, beyond the mandatory 28
U.S.C. § 455(b)(2) disqualification arguments, why he
believes Magistrate Judge Johnston should have
disqualified himself. Attorney Shalaby raises:
“ M a gis tr at e Jud g e J o h n s t o n ’ s
inexplicable refusal to allow Plaintiff to
take the deposition of perhaps the most
important witness in this matter, Dr.
Thomas Eagar of MIT. Magistrate Judge
Johnston characterized the evidence
Plaintiff sought to obtain from Dr.
Eagar as ‘awesome,’ and yet stated from

38a
Appendix C
the bench, quite angrily, that he would
not allow Plaintiff to take Dr. Eagar’s
deposition, without providing any
reason. This is detailed on dkt. 325 filed
4/6/18.10 Based on the matters as
explained on dkt. 325, I believe Hon.
Magistrate Judge Johnston has an
actual prejudice, favoring the defense,
because of his recognition that the Dr.
Eagar evidence would be ‘awesome’ and
his refusal to allow the deposition to
take place, without expressing any basis
for his decision. There is no privilege of
any kind to preclude the taking of the
deposition, and there is no reason based
in fact or law of which I am aware which
would support Magistrate Judge’s
decision.”
The case history dealing with the question of plaintiff
deposing Dr. Eagar is as follows: On August 17, 2017,
Magistrate Judge Johnston conducted a hearing [130]
on plaintiff’s motion [91] to compel the deposition of

10

Docket # 325 is an objection filed by Attorney Shalaby
on behalf of plaintiff to an oral ruling made by Magistrate Judge
Johnston during a hearing [323] on April 5, 2018 wherein
Magistrate Judge Johnston denied plaintiff’s request to depose Dr.
Thomas Eagar. This objection was later withdrawn [380] by
Attorney Shalaby.

39a
Appendix C
Dr. Eagar, the motion [115] of Dr. Eagar to quash the
subpoena for his deposition, and defendants' motion
[103] for a protective order. Thereafter, Magistrate
Judge Johnston entered an order [122] granting Dr.
Eagar’s motion to quash, denying plaintiff’s motion to
compel, and denying as moot defendants' motion for
a protective order. Magistrate Judge Johnston stated
on the record during the hearing:
“[I]f they are not going to call him as a
witness at this point, and they haven't
identified him under 26(a)(1), they are
not going to use him at this point, and it
can't be a – a party can't hijack a person
to have them provide expert testimony
for free, right? That would seem awfully
unfair to that person.
If your co-counsel11 is trying to get
expert opinions out of Dr. Eagar, there
is a way to do it. You hire him. You pay
him. You don't sneak a subpoena with
your $50 witness fee and start rifling a
bunch of opinion questions at him, and
that’s unfair to the other side because
they don't know what the opinions are
going to be for this particular case.”
11

Plaintiff was represented at the hearing by local counsel,
Attorney Whitham. The “co-counsel” referred to is Attorney
Shalaby, who did not participate in the hearing.

40a
Appendix C
[130, p. 12]
At the conclusion of the hearing, Magistrate Judge
Johnston stated:
“I will enter an order on today’s motion,
but to be clear, Dr. Eagar’s deposition is
not occurring on the 22nd, and until he is
identified as a witness in this case, he is
not going to be deposed. Having said
that, there is case law that prevents a
party from just slapping a witness on
their own 26(a) so that they can depose
him. So we won't have that issue.” [130,
p.20]
After the order [122] was entered, Attorney Shalaby
filed a document [126] entitled “Notice of Defense
Misinformation” in which he noted Dr. Eagar had
been listed on plaintiff’s initial Rule 26(a)(1)
disclosure as an individual with discoverable
information and that, in conversations Attorney
Shalaby had with Dr. Eagar, Dr. Eagar had told
Attorney Shalaby that Dr. Eagar deemed it his civic
duty to appear and testify at his deposition and that
Dr. Eagar reported having told defense counsel he
would not be charging for his testimony. Magistrate
Judge Johnston treated this document as a motion to
reconsider the prior order [122] and, on August 28,
2017, entered an order [129] denying the motion to
reconsider. No objection under Fed. R. Civ. P. 72(a)

41a
Appendix C
was filed either to the initial order [122] or to the
order [129] denying reconsideration.
[*11] The issue of deposing Dr. Eagar was
again raised at a hearing [246] before Magistrate
Judge Johnston on January 4, 2018. During that
hearing, the defendants stipulated they would not call
Dr. Eagar as a witness in this case. [246, p. 32].
During the hearing Magistrate Judge Johnston
stated:
“[L]et’s bring the focus to what we have
before me, is you are seeking to depose
a witness [Dr. Eagar] who has been a
prior retained expert by your opponent
and get – I understand, I have heard
your argument, but in my mind, there is
no doubt what you are trying to do is to
get that witness, who has been a
witness for the Defendant multiple
times, to give you an opinion that’s
contrary. I get it. That would be
awesome evidence to get. It doesn't
mean you get it though. If he wants to
be hired by you, he can be, but they are
not calling him as a witness.” [246, pp.
45-46]
At the conclusion of the hearing Magistrate Judge
Johnston stated on the record:
“I have said repeatedly that I would not

42a
Appendix C
allow a deposition of Dr. Eagar
regarding the report in the Marmont
case. However, he has raised a specific
issue that Dr. Eagar – Mr. Shalaby
claims that Dr. Eagar notified
Worthington that your product was
defective and that they were on notice.
I am not allowing an oral deposition on
that issue. I am considering written
deposition questions under Rule 31, but
I want to see the questions, the cross,
the re-cross, and the redirect, all under
Rule 31, before I even allow it.” [246, pp.
49-50]
The following exchange then occurred:
“MR. SHALABY: Okay. So thank you for
making the clarification, your Honor. I
am going to make a motion requesting a
videotaped oral deposition, just so we
will have it properly in the record.
THE COURT: That’s fine. Go ahead and
file your motion. Bring it in. I will be
here.” [246, p. 50]
Magistrate Judge Johnston then entered a written
order [245] on January 4, 2018. In the order he
stated:

43a
Appendix C
“As discussed in open court, the Court
will not allow plaintiff to depose Dr.
Thomas Eagar regarding his expert
report in Marmont v. Bernzomatic
(2:16-CV-00848). If plaintiff wishes to
proceed with a written deposition under
Rule 31(a)(5) as to whether Dr. Eagar
notified defendants of his opinion that
the product at issue in this case was
defective, plaintiff shall provide the
Court’s operations specialist with a list
of 10 questions relating to this subject
matter by 1/11/2018. Defendants may
submit responses/cross-questions by
1/16/2018. The Court will determine
whether it will allow the questions to be
served on Dr. Eagar.”
No objection under Fed. R. Civ. P. 72(a) was filed to
this order [245]. Attorney Shalaby chose not to submit
proposed questions for a possible Rule 31 written
deposition.
During a hearing [323] on March 29, 2018 the
following exchange occurred:
“MR. SHALABY: I need Dr. Eagar’s
videotaped deposition without
restrictions. I do not need ten questions.
All that will do --

44a
Appendix C
THE COURT: I already said you can't do
that, so why am I revisiting it for the
third time.
MR. SHALABY: I honestly don't believe
you have a written order that says that.
THE COURT: You can't depose Dr.
Eagar.” [323, p. 14]
On behalf of plaintiff, Attorney Shalaby filed an
objection [324] [325] pursuant to Fed. R. 72(a) to
Magistrate Judge Johnston’s ruling during the course
of this hearing that plaintiff would not be allowed to
depose Dr. Eagar. On August 23, 2018, plaintiff,
through Attorney Shalaby, withdrew [380] this
objection.
[*12] It is apparent from the foregoing that
Magistrate Judge Johnston did not deny plaintiff’s
request to depose Dr. Eagar “without providing any
reason.” At the March 29, 2018 hearing, he stated: “I
already said you can't do that, so why am I revisiting
it for the third time.” Previously, at the August 17,
2017 hearing, he stated he would not allow the
deposition because Dr. Eagar had not been identified
as a witness. At the January 4, 2018 hearing, after
defendants stipulated they were not going to call Dr.
Eagar as a witness, Magistrate Judge Johnston again
declined to allow Dr. Eagar to be deposed because
defendants were not calling him as a witness. He also,
said he was considering allowing a deposition by

45a
Appendix C
written questions under Fed. R. Civ. P. 31 on the
limited issue of whether Dr. Eagar had notified
defendants of his opinion that the product at issue in
this case was defective. He then gave plaintiff time to
submit ten proposed deposition questions to the court.
Attorney Shalaby chose not to submit any proposed
deposition questions.
As this review of the record demonstrates,
Attorney Shalaby’s assertion in his response [384] to
the 2018 Show Cause Order that Magistrate Judge
Johnston did not provide any reason for precluding
plaintiff from taking Dr. Eagar’s deposition is false.
The reason (that defendants had not identified Dr.
Eagar as a defense witness and stipulated that they
would not call him as a defense witness) was clearly
stated on the record in the August 17, 2017 hearing
[130] and the January 4, 2018 hearing [246]. At the
March 29, 2018 hearing, the stated reason was “I
already said you can't do that, so why am I revisiting
it for the third time.”
If Attorney Shalaby believed the rulings were
wrong, he had the opportunity to file an objection to
each ruling pursuant to Fed. R. Civ. P. 72(a). He did
not avail himself of this opportunity. He did not file
Rule 72(a) objections to the August 17, 2017 or
January 4, 2018 rulings. While he did file an objection
to the March 29, 2018 ruling [323], he subsequently
withdrew [380] that objection. Attorney Shalaby’s
statement in his response [384] that Magistrate
Judge Johnston precluded him from taking Dr.
Eagar’s deposition “without providing any reason” is

46a
Appendix C
false.
Attorney Shalaby also filed a supplemental
response [386] setting forth additional reasons he
believes Magistrate Judge Johnston should have
disqualified himself. The supplemental response
states:
“Magistrate Judge Johnston served as
co-counsel with the Holland & Knight
firm during the time that the firm
represented ‘BernzOmatic’ as a
defendant in Shalaby v. Bernzomatic, et
al., 07-cv-2107. His retention of the
‘court-appointed expert’ appears to be an
active hand in the litigation, and
appears unprecedented in a civil case. A
cursory search on Westlaw shows that
there are only 7 published decisions, in
the entire nation, in which federal
courts retained their own experts.”
The supplemental response goes on to note that
three of these cases were criminal cases, one was a
bankruptcy case, and one was the case at bar. The
supplemental response distinguishes the other two
cases because in one “the parties jointly selected an
expert and had the expert designated as the court
expert to advise the court on disputed patent claim
terms.” Level 3 Commc'ns, LLC v. Limelight
Networks, Inc., 630 F. Supp. 2d 645 (E.D. Va. 2008).
And, in the other, because “the Court retained various

47a
Appendix C
experts for advisement regarding several legal issues
and to assist in data collecting, data collation, and
administration of the numerous communications from
and to class members.” Grantham v. J.J. Mason Grp.,
811 F. Supp. 1386 (E.D. Mo. 1993).
The supplemental response then states:
“It therefore appears that no Federal
Court in the nation has ever retained its
own expert witness so as to inject the
Court into the litigation process.
Instead, the six cases found on Westlaw
demonstrate that court-appointed
experts are appropriate in criminal
cases, or by stipulation of the parties, or
to assist the court itself such as to assist
in data collection and administration of
communications to class members.”
[*13] The record reflects Magistrate Judge
Johnston raised the possibility of app\ointing a
court-appointed expert under Fed. R. Evid. 706 at the
August 17, 2017 hearing. [130, pp. 8-10, 17] He asked
each side to provide a list of five names of proposed
experts. [122] At a hearing [157] on September 26,
2017, he stated “[n]one of you folks were able to
match up on proposed experts, so I'm going to find my
own. He is clearing conflicts now. ...... If he clears
conflicts then we are going with Mr. Adil, A-d-i-l,
Khan, K-h-a-n.” [157, p. 2] In an order [152] entered

48a
Appendix C
by Magistrate Judge Johnston on September 26,
2017, Adil Khan was appointed as a court-appointed
expert under Rule 706. The order states: “Mr. Khan
has confirmed that he has no conflict with the parties
or their counsel. The clerk is directed to file a copy of
the court’s Rule 706 letter to Mr. Khan as well as his
resume to the docket.” The letter12[153] and resume
12

The text of the letter is as follows:
Dear Mr. Khan:
As you know, I am appointing you as a Court-Appointed Expert
for this case. In that capacity, your responsibility will be to
provide your opinion regarding the cause of the alleged failure of
the container. Pursuant to Federal Rule of Evidence 706, I am
required to inform you of your duties. This letter serves that
purpose.
You must advise the parties of any findings that you make.
1. You may be deposed by any party to this case.
2. You may be called to testify by the Court or any party;
and
3. You may be cross-examined by any party, including the
party that called you to testify.
Yesterday, the parties had a status hearing with me. At the
hearing, I provided the parties with your name so that they could
assure themselves that you had no conflicts. I also informed them
that under Federal Rule of Evidence 706, they still retained the
right to hire their own expert witnesses. To that point, it seems
the parties have already hired experts. The parties wanted their
experts to have input on the protocols for testing of the container.
That is a reasonable request and I will certainly allow the experts
(not counsel) to provide their views on the protocols. However,

49a
Appendix C

having said that, you retain the ultimate decision as to what
protocols should be used. In determining the protocols, I will set
a telephonic status at a mutually convenient time so that we can
obtain your general views on the protocols. After that, I will allow
the parties' experts (again, experts - not counsel) to provide you
with written suggestions as to the protocols. After you receive the
written suggestions regarding the protocols, the parties' experts
and you can have a conversation to discuss the suggestions. That
conversation will be transcribed by a court reporter. The cost for
the court reporter and the transcription will be shared equally by
the parties. Following that conversation, you can determine the
precise protocols that you will use. After that, you can test the
container. Following your testing, you will prepare your report
regarding your findings and provide it to me, and I will provide it
to the parties. Except for the written submissions and the
conversation about the protocols, there should be no
communication between you and the experts, and certainly none
with counsel, absent prior Court approval.
Additionally, as I mentioned to the parties, you will be
compensated with the parties sharing the cost evenly (50%
plaintiff / 50% defendants). As to any deposition you may be
required to provide, the party that takes your deposition will be
required to pay your standard reasonable rate for that deposition.
If at any time you become uncertain as to your responsibilities,
please let me know and we will have a telephonic status call on
the record with you and counsel to clarify those responsibilities.
I look forward to you assisting the Court and the parties in
reaching an accurate determination of what occurred with the
container and why.
At your earliest convenience, please let me know a Tuesday or
Thursday that you are available for a telephonic status to discuss

50a
Appendix C
[153-1] were so filed. No Rule 72(a) objection was filed
to this order or the letter referenced therein and filed
with it. Rule 706 clearly allows the court to appoint
an expert on its own initiative. The Advisory
Committee Notes to Rule 706 when proposed provide:
“The inherent power of a trial judge to appoint an
expert of his own choosing is virtually unquestioned.”
The note cites Scott v. Spanjer Bros., Inc., 298 F.2d
928 (2nd Cir. 1962) which upheld the court’s
appointment of a medical expert in a tort case.
Nothing in the rule suggests its use is to be limited to
certain types of cases. The Advisory Committee Note
states: “in the federal practice, a comprehensive
scheme for court appointed experts was initiated with
the adoption of Rule 28 of the Federal Rules of
Criminal Procedure in 1946.” It further states, in
reference to Rule 706, that “[t]he present rule
expands the practice to include civil cases.”
Magistrate Judge Johnston acted within his authority
to appoint an expert and Attorney Shalaby did not file
a Rule 72(a) objection to that appointment.
this case with counsel and to obtain your general views on the
protocols.
Thank you very much.
Sincerely,
Iain D. Johnston
U.S. Magistrate Judge
Copy to Court file
Copy to all counsel of record

51a
Appendix C
[*14] Other matters raised by the supplemental
response include the assertion that Magistrate Judge
Johnston failed to file all of the correspondences he
had with the court-appointed expert. Attorney
Shalaby states in the supplemental response:
“Magistrate Judge Johnston advised the
parties of his intent for full
transparency with regard to the Court
expert. Mr. Shalaby requested that the
Court forward copies of the
correspondences between Magistrate
Judge Johnston and Mr. Khan, or that
they be posted on the Pacer system. The
request was not responded-two (sic). On
April 24, 2018 Mr. Shalaby repeated the
request as a motion [dkt. 334], in which
he requested that Magistrate Judge
Johnston order Mr. Khan to turn over
all photographs, micrographs, images,
notes, correspondences, and materials.13
Mr. Khan had already been paid his
$15,909.01, therefore had no reason to

13

The motion, in relevant part, stated as follows: “Plaintiff
respectfully moves for an order directing Mr. Khan to serve all
photographs and other work product he has in relation to his
Court-ordered assignment as the court-appointed expert. Counsel
is informed that Mr. Khan took various photographs and may
have micrograph and/or other images, notes, correspondences, and
materials.”

52a
Appendix C
withhold the materials. The Court
assured ‘transparency’, therefore there
was no reason for the Court not to post
all correspondences with Mr. Khan on
Pacer, or to provide them to the parties.
The Court did not even object. However,
when the Court issued its order, it
excluded
mention
of
the
correspondences, and directed Mr. Khan
to produce the materials on the minute
entry which he has no access to, shown
at dkt. 362:
MINUTE entry before the
Honorable Iain D.
Johnston: Status and
motion hearing held
5/15/2018. The portion of
the plaintiff’s motion 334
to obtain Mr. Khan’s work
product is granted. Mr.
Khan is directed to provide
a copy of any photographs
and other work product to
the parties.14

14

This is a partial quotation of Magistrate Judge
Johnston’s order [362] of May 15, 2018. The order in its entirety
is as follows:“MINUTE entry before the Honorable Iain D.
Johnston: Status and motion hearings held 5/15/2018. The portion
of the plaintiff's motion 334 to obtain Mr. Khan's work product is

53a
Appendix C
Mr. Khan is not on Pacer and does not receive
minute entries. The Court did not post any letter or
notice to Mr. Khan to produce the photographs and
materials which cost the parties $15,909.01. It does
not appear he sent any letter to Mr. Khan at all
directing him to turn over the requested materials.
Only some correspondences between the Court and
Mr. Khan were posted. However, it appears that other
correspondences were not posted. It appears that the

granted. Mr. Khan is directed to provide a copy of any
photographs or other work product to the parties, which the
parties shall maintain under the provisions of the confidentiality
order. The clerk is directed to forward a copy of this order to Mr.
Khan. The portion of the plaintiff's motion to terminate the
requirement that local counsel also sign all filings 334 is denied to
help facilitate local counsel's obligation under Rule 11 to review
all filings for soundness. In light of the stay, see Dkt. 290, and the
objections pending before Judge Reinhard, see Dkts. 324, 325, 338,
and 343, the Court strikes all pending motions 295, 306, 336, and
359. Given the history of this case, the quantity of filings, the
impact on the other cases before this Court, and under its
inherent powers to manage and control its docket, the Court limits
the parties to filing one motion per week, with each motion
addressing a single, discrete dispute. Each motion must be set for
presentment, see Local Rule 5.3(b), must provide three business
days' notice, and counsel must appear in person, see Standing
Order on General Status and Motion Practice (“Counsel or a party
must appear in person for the presentment of a motion.... Motions
must be filed three (3) business days before presentment ...”).
However, the Court anticipates no motions until after it lifts the
stay. The Court will decide how this case proceeds after Judge
Reinhard rules on the pending objections. (yxp,) (Entered:
05/15/2018)”

54a
Appendix C
correspondences letter terminating Mr. Khan, if any,
was not posted. There is reason to believe that there
are other correspondences between Mr. Khan and the
Court which were not posted, and which were not
otherwise given to the parties. The Court has not told
the parties that there are no correspondences between
the Court and Mr. Khan which were not given to the
parties and which were not otherwise posted on
Pacer. The absence of a letter or order directed to Mr.
Khan and directing him to turn over the materials
specified by the Court’s minute entry further concerns
Plaintiff. In fact it appears to concern the defendants
as well, based on an interaction between Mr. Shalaby
and Mr. Granskog at the Minnesota test facility on
September 4, 2018 (the same day the OSC was
issued).” (Emphasis added).
[*15] As the portion of the order [362]
underlined in the above footnote highlights, Attorney
Shalaby’s supplemental response [386] omits the
portion of the order which states: “The clerk is
directed to forward a copy of this order to Mr. Khan.”
The docket contains an entry dated May 16. 2018,
which states “MAILED Minute entry order #362 to
Adil Khan via email.” Attorney Shalaby’s statement
in his supplemental response that “[t]he Court did not
post any letter or notice to Mr. Khan to produce the
photographs and materials which cost the parties
$15,909.01” and his statement that there was no
“order directed to Mr. Khan and directing him to turn
over the materials specified by the Court’s minute
entry” are false. The order [362] clearly directed the

55a
Appendix C
clerk to “forward a copy of this order to Mr. Khan”
and the docket entry on May 16, 2018 shows the clerk
did so.
The supplemental response also references the
absence of any letter terminating Mr. Khan but the
record shows Mr. Khan’s retention was terminated by
order [262] dated February 5, 2018. On that same
date a docket entry by the clerk was made stating:
“Mailed Copy of Order #262 to Adil Khan by
electronic mail.”
The supplemental response also raises an
appearance of impropriety in Magistrate Judge
Johnston ordering plaintiff to pay 50% of Mr. Khan’s
fee even though there are two defendants and only
one plaintiff. It states: “The fact that Magistrate
Judge Johnston ordered the bill split 50-50, instead of
1/3 each, further creates the ‘appearance’ of
‘impropriety,’ particularly when viewed with the
totality of circumstances described above, would
likely lead the average person to believe that
Magistrate Judge Johnston may be prejudiced by
favoring the defendants and perhaps creating
obstacles for the plaintiff.”
As noted above, no Rule 72(a) objection was
filed to the order [152] appointing Mr. Khan or the
letter [153] referenced therein and filed with it which
clearly set out the 50% plaintiff-50% defendants split
for Mr. Khan’s fees. Rule 706 makes a
court-appointed experts compensation in a civil case
payable “by the parties in the proportion and at the
time that the court directs – and the compensation is

56a
Appendix C
then charged like other costs.15” Fed. R. Evid.
706(c)(2).
Attorney Shalaby also states in the
supplemental response that “effectively Magistrate
Judge Johnston has already ‘sanctioned’ both the
plaintiff as well as his counsel by forcing them to pay
$7,954.05 of the $15,909.01 bill referenced above.
Magistrate Judge Johnston did not refer to his order
directing payment as a ‘sanction’ but in effect the
order operated as a sanction, because the Court
imposed this involuntary payment of $7,954.05 for an
expert the Court hired, then fired, without benefit to
any party. Plaintiff and Mr. Shalaby are sharing costs
in this action, and thus far Mr. Shalaby has paid far
more than 50% of all costs associated with this case.
This includes the $15,909.01 bill of Mr. Khan.”
Attorney Shalaby offers this previously imposed
“sanction” as a reason he should not be otherwise
sanctioned by the court. The concluding paragraph of
the supplemental response states:
“Returning now to the question of
imposition of sanctions, the Court is
urged to recognize and appreciate the
fact that Magistrate Judge Johnston’s
imposition of $7,945.50 on Plaintiff to
pay for Mr. Khan’s bill operates very
15

Amounts expended on a court-appointed expert are
ultimately recoverable by the prevailing party as chargeable costs.
28 U.S.C. § 1920(6); Fed. R. Civ. P. 54(d)(1)

57a
Appendix C
much as a sanction. It was a very large
imposition of monies by the Court, in
exchange for which there was no benefit
at all. It can be deemed a sanction, paid
for a crime which was never committed.
The right and fair thing to do is issue an
order to Mr. Khan to produce his
product, and if there is no product, order
him to return the money, the 50% paid
by the plaintiff. This will be the case.
Mr. Khan will have no product in
exchange for the $15,909.01 paid to him,
therefore ordering him to return 50% is
the right and fair thing to do. Leaving
the matter as it stands is not really
right because it operates as a sanction
imposed on the plaintiff and his counsel,
and there is no basis for such a sanction
or otherwise for such a financial
imposition.”
[*16] As noted above, the 50/50 split was amply
set out at the outset of Mr. Khan’s retention and no
Rule 72(a) objection was made to the order setting up
that arrangement. Plaintiff also did not file Rule 72(a)
objection to the order directing the payment of 50% of
Mr. Khan’s invoice nor to the order Magistrate Judge
Johnston entered denying reconsideration of that

58a
Appendix C
order.16 The order requiring payment of 50% of Mr.
Khan’s invoice was simply the execution of the
original arrangement to pay those fees set out by
Magistrate Judge Johnston at the outset and as
allowed by Rule 706(c)(2). It cannot be construed as a
sanction on plaintiff or Attorney Shalaby.
The supplemental response also addresses
several other actions taken by Magistrate Judge
Johnston which it asserts raise the appearance of
impropriety. These actions include issuing a rule to
show cause to Attorney Shalaby on October 18, 2017
concerning information turned over to the
court-appointed expert and refusing to allow the
turnover to the court-appointed expert of the
defendant’s own description of the torch’s fracture
groove and its intended purpose. The supplemental
response states concerning this information:
“Magistrate Judge Johnston was made
aware that if the above information [the
defendant’s description of the fracture
groove and its intended purpose] were to
be given to the Court-appointed expert,
the expert would literally have no choice
but to reach the conclusion that the
cylinder that injured Mr. Bailey was
defective. [record citation omitted]

16

13, 2018.

See the discussion in this court’s order [294] of March

59a
Appendix C
Nevertheless, Magistrate Johnston
prohibited providing this information to
the expert, and stated clearly on the
record, ‘at this time.’ He repeatedly
stated that he would not allow the
expert to receive Plaintiff’s fracture
groove submissions ‘at this time.’ The
question is obviously ‘why’ Magistrate
Judge Johnston filtered the most
important information the expert
needed to determine the product defect
matter. Disturbingly, Mr. Shalaby can
only conclude that Magistrate Judge
Johnston filtered this information for no
reason other than the fact that the
defendants asked him to prevent Mr.
Shalaby from giving it to the expert,
knowing that the fracture groove
description alone would go very far
towards determination that the fuel
cylinders suffer design defects.”
While Attorney Shalaby states he “can only
conclude that Magistrate Judge Johnston filtered this
information for no reason other than the fact that the
defendants asked him to prevent Mr. Shalaby from
giving it to the expert, knowing that the fracture
groove description alone would go very far towards
determination that the fuel cylinders suffer design
defects,” the record shows the court-appointed expert
stated at the hearing on October 17, 2017, that he did

60a
Appendix C
not need the information “at this time”. The following
discussion occurred at the October 17. 2017 hearing:
“MR. SHALABY: Okay. Can we be
specific as to specifications? I'm
referring to the manufacturing
specifications for the amount of force the
cylinders are designed to withstand as
compared to and differentiated from the
manufacturing specification for the
measure of force required to break the
fracture groove on the torch handle.
THE COURT: Okay. Well, hold on a
second. That's a very different question
than you asked Mr. Kahn. Mr. Kahn,
did you hear all that?
MR. KAHN: I heard that, yes.
THE COURT: Is that something you
need now?
MR. KAHN: I don't need it now, but I
will most likely need it once I take a
look at all the components that are
involved in this investigation.
[*17] THE COURT: Okay. All right. So,
Mr. Ergo, Mr. Granskog, Mr. Kahn is
going to need it to make his opinion, all

61a
Appendix C
right? So that is going to have to be
provided to him sooner or later, okay?
MR. ERGO: Well, your Honor, I don't
think there is a manufacturing
specification for the amount of force.
THE COURT: Well, if there isn't, if you
don't have it, you don't have it, right?
MR. ERGO: Okay.
THE COURT: But if Mr. Kahn can't
make an opinion because you don't have
it, that is going to cause a problem.
MR. ERGO: I understand that, but,
geez, when we are looking at -- what we
are going to be establishing here is was
this metal brittle or was it ductile.
That's going to be one of the baselines.
And I don't think those type of specs are
necessary, but I will -THE COURT: I'm not limiting -- I'm not
limiting Mr. Kahn to any aspect. I have
no idea what he is going to see when he
looks at this thing. I have no idea what
he is going to find when he tests it.
That's why he is coming in here. He has
got a free run, all right? So let's see

62a
Appendix C
what it is. And if he needs information
that is necessary for his opinion, if it
exists, it has got to be provided to him.
That's all I'm saying.
MR. ERGO: All right. Whatever data he
requests, that he says he needs, we will
cooperate fully.
THE COURT: Okay. I assumed you
would. Okay.” [176, pp. 20-22]
It is evident from this exchanges at the October
17, 2017 hearing that if, Mr. Khan, the
court-appointed expert determined he needed the “the
manufacturing specifications for the amount of force
the cylinders are designed to withstand as compared
to and differentiated from the manufacturing
specification for the measure of force required to
break the fracture groove on the torch handle,” that
Magistrate Judge Johnston was going to require
defendants to provide that information to Mr. Khan.
It is also evident that Mr. Khan stated he did not
“need it now” but would “most likely need it once I
look at all the components that are involved in this
investigation.” Magistrate Judge Johnston made clear
Mr. Khan would get the information if he requested
it.
After this hearing, Magistrate Judge Johnston
entered an order [160] which provided in part that
“[c]ounsel shall provide the photographs and any

63a
Appendix C
manufacturing drawings for the cylinder and torch
materials as discussed in open court.”
At the conclusion of the hearing the following
discussion occurred:
“MR. SHALABY: One last, very
important question. At this point in
time, Mr. Kahn, do you need to have any
facts as to what was being done with the
product before or at the time of its
failure or not yet?
MR. KAHN: I think it is kind of early
right now. I would like to take a look at
it first. And I'm sure that kind of
information is going to be pertinent to
what is done ultimately in the
evaluation. So, yes, I may ask for it, and
I will probably get it after it, request it
at the time that is necessary once I have
taken a good look at the components
that are there. So I think it is coming,
but I don't think I need it right now.
THE COURT: But not now, not now.
Just give Mr. Kahn what we have talked
about, okay?
MR. SHALABY: Okay. The directions
were not to send any text, only

64a
Appendix C
photographs?
[*18] THE COURT: Photographs, and
then Mr. Ergo and Mr. Granskog were
going to send specs or a drawing, those
type of things, but that's it, all right?
MR. SHALABY: Okay.” [176, pp. 27-28]
On October 18, 2017, Magistrate Judge
Johnston entered an order [161] in which he issued a
rule to show cause why Attorney Shalaby should not
be held in contempt for violating Magistrate Judge
Johnston’s order [160] of October 17, 2017, “to provide
only photographs of the cylinder and torch at issue in
this case” to Mr. Khan.
As just noted, at the October 17, 2017 hearing,
Attorney Shalaby acknowledged and Magistrate
Judge Johnston confirmed Attorney Shalaby was to
send only photographs to Mr. Khan. However, in
addition to photographs, he attached to his email to
Mr. Khan “Defendant’s document describing the torch
handle safety fracture groove features at issue.” [159
p.5] This attachment included the following text:
“Fracture Groove > A designed in failure point in the
torch, so that when the torch & cylinder are dropped,
the fracture groove will fail prior to the cylinder
center bushing failing. If the center bushing fails,
then an extremely large 8 to 10 foot flame will erupt
from the cylinder.” [159 p. 11]
In his supplemental response [192] to

65a
Appendix C
Magistrate Judge Johnston’s rule to show cause order
[161], Attorney Shalaby stated the transcript of the
October 17, 2017 hearing showed Magistrate Judge
Johnston had erred. He cites the portion of the
transcript (quoted above) which states:
THE COURT: I'm not limiting -- I'm not
limiting Mr. Kahn to any aspect. I have
no idea what he is going to see when he
looks at this thing. I have no idea what
he is going to find when he tests it.
That's why he is coming in here. He has
got a free run, all right? So let's see
what it is. And if he needs information
that is necessary for his opinion, if it
exists, it has got to be provided to him.
That's all I'm saying.
MR. ERGO: All right. Whatever data he
requests, that he says he needs, we will
cooperate fully.
THE COURT: Okay. I assumed you
would. Okay.
Attorney Shalaby’s supplemental response [192] to
Magistrate Judge Johnston’s order [161] then states:
“Mr. Khan needs the documents which this counsel
has sent. In particular he needs the document that
describes the fracture groove feature, a document
prepared by the defendants and/or their affiliates,

66a
Appendix C
and which explains what a fracture groove feature is.”
[192, p.3]
Again, as discussed above, a review of the
record shows Magistrate Judge Johnston made clear
that Mr. Khan would get the fracture groove
information if he requested it and that Mr. Khan had
stated: “I don't need it now, but I will most likely need
it once I take a look at all the components that are
involved in this investigation.” It was in this context
that Magistrate Judge Johnston limited the
information to be provided by Attorney Shalaby to
photographs of the cylinder and torch at that time in
his October 17, 2017 order [160]. From the transcript,
it is clear Mr. Khan was planning to inspect the
product plaintiff had been using when he was injured
and determine after that what his next step would be.
Attorney Shalaby took it upon himself to send
the information before Mr. Khan determined if he
wanted it and sent the information to Mr. Khan
despite the fact the order limited Attorney Shalaby to
sending only photos and despite the fact Attorney
Shalaby had acknowledged at the October 17, 2017
hearing, and Magistrate Judge Johnston had
confirmed at that hearing, that only photographs
were to be sent by Attorney Shalaby to Mr. Khan. It
was this clear violation of the October 17, 2017 order
that elicited the rule to show cause.17

17

Magistrate Judge Johnston ultimately discharged [238]
the rule to show cause.

67a
Appendix C
[*19] Another action raised by the
supplemental response to the 2018 Show Cause Order
as creating an appearance of impropriety is set forth
as follows:
“Mr. Shalaby filed a motion for partial
summary judgment for determination of
liability as a matter of law nearly a year
ago, on October 30, 2017 [dkt. 193-197].
In response, Magistrate Judge Johnston
suggested to the defendants in open
court, and on the record, that they file a
‘Rule 56(d) declaration, so that he could
take the motion off calendar. They did,
and he took it off calendar, only for the
motion to be followed by defendant’s
motion to revoke Mr. Shalaby’s PHV
admission. This action creates the
appearance of impropriety, and is rather
serious, because the MSJ could very well
establish liability as a matter of law.
Moreover, the expert fees of Mr. Khan
would have been avoided as well.”
No Rule 72(a) objection was filed to the order [201],
entered November 2, 2017, entering and continuing
plaintiff’s motion for partial summary judgment.
To summarize, in the 2018 Show Cause Order
the court ordered Attorney Shalaby to address: “[h]is
repeated false statements that Magistrate Judge
Johnston was employed by Holland & Knight at the

68a
Appendix C
time Holland & Knight attorneys were representing
the defendants in Attorney Shalaby’s personal
litigation against them and that Magistrate Judge
Johnston refused to disqualify himself in the current
case though such disqualification was mandated by
28 U.S.C. § 455(b)(2) due to that employment.”
Attorney Shalaby responded by:
1) Acknowledging that he made the statements
without reviewing the transcript of the hearing held
on the matter and stating that had he “known that
Judge Johnston left the HK firm two months before it
substituted into my San Diego action, I would not
have stated otherwise on the pleadings referenced by
this Court”;
2) Arguing that notwithstanding Magistrate
Judge Johnston’s employment with Holland & Knight
having ended prior to one of its attorneys entering an
appearance in Attorney Shalaby’s personal suit, he
was required to recuse himself under 28 U.S.C. §
455(b)(2) because, after leaving Holland & Knight, he
served as co-counsel with a Holland & Knight
attorney in unrelated cases. Attorney Shalaby cited
no cases to support this position and the court found
none. Rather, the court’s research found that Section
455(b)(2) only requires recusal when a member of the
judge’s former law firm worked on the matter while
the judge was still a member of the firm;
3) Arguing that Magistrate Judge Johnston
was required to recuse himself for actual prejudice
because he refused to allow plaintiff to depose Dr.
Eagar and failed to give a reason for this ruling.

69a
Appendix C
However, the record in this case shows Attorney
Shalaby’s claim that Magistrate Judge Johnston did
not give a reason for denying plaintiff Dr. Eagar’s
deposition is false. The record clearly shows
Magistrate Judge Johnston stated his reason (Dr.
Eagar had not been identified by defendants as an
expert and defendants stated they would not call him)
in open court;
4) Misrepresenting the content of an order
[362] entered by Magistrate Judge Johnston on May
15, 2018, by omitting the portion of the order
directing the clerk “to forward a copy of this order to
Mr. Khan” and then stating that the “Court did not
post any letter or notice to Mr. Khan to produce the
photographs and materials” though the docket
reflects that the clerk sent Mr. Khan the order
directing Mr. Khan to turnover these materials;
[*20] 5) Arguing Magistrate Judge Johnston
improperly refused to allow the turnover of the
fracture groove information and stating that “Mr.
Shalaby can only conclude that Magistrate Judge
Johnston filtered this information for no reason other
than the fact that the defendants asked him to
prevent Mr. Shalaby from giving it to the expert”
when the record shows the expert stated that he did
not “need it now” and that Magistrate Judge Johnston
would order defendants to provide that information to
Mr. Khan if Mr. Khan determined that he needed it;
6) Arguing Magistrate Judge Johnston showed
partiality to defendants when he named a
court-appointed expert, ordered that expert’s fees to

70a
Appendix C
be split 50/50 between plaintiff and defendants, and
suggesting to defendants that they file a Rule 56(d)
declaration in response to plaintiff’s motion for partial
summary judgment so he could take the motion off
the calendar and then taking the motion off the
calendar after defendants filed the declaration;
7) Arguing that the order directing plaintiff to
pay 50% of Mr. Khan’s submitted bill was in effect a
“sanction” and requesting relief from that “sanction”.
As the foregoing makes clear, the bulk of
Attorney Shalaby’s responses to the 2018 Show Cause
Order’s provision requiring him to address his false
statements about Magistrate Judge Johnston’s
refusal to disqualify himself because of his
employment at Holland & Knight have nothing to do
with those false statements, but, instead, argue that
Magistrate Judge Johnston should have disqualified
himself for different reasons. In the course of making
these additional arguments, Attorney Shalaby made
several additional misrepresentations about
Magistrate Judge Johnston’s actions in this case as
summarized in the foregoing paragraphs numbered
3), 4), and 5) and detailed more fully above.
On December 28, 2018, Attorney Shalaby filed
a motion [401] (which included as an attachment a
request for judicial notice [401-1] ) seeking leave to
file “supplemental documents in support of response
of Andrew W. Shalaby to order to show cause dated
9/4/18” The proposed supplemental documents are
included in Exhibit TR-1 (certain documents from a
New York State court case, Tran v. Worthington

71a
Appendix C
[401-2] ) and Exhibit TR-2 (a draft motion, with
accompanying memorandum of law, for Rule 11
sanctions [401-3].) Attorney Shalaby states he served
the latter [401-3] on defendants pursuant to Fed. R.
Civ. P. 11 (c)(2).18 The docket sheet in this case does
not show that the Rule 11 motion was ever filed.
In the motion [401] for leave to file
supplemental documents, Attorney Shalaby again
raises the argument that Magistrate Judge
Johnston’s order requiring plaintiff to pay one-half of
the court-appointed experts fee was, in effect, a
sanction. This argument was addressed above. In the
motion [401] Attorney Shalaby also states the
following under the heading “Conclusion”:
“Mr. Shalaby respectfully impresses
upon the Court that the overriding
concern, by far, must be evaluation of
Mr. Shalaby’s work and tenacity in
prosecution of this case thus far, the
likelihood that Mr. Shalaby will be able
to obtain and present evidence to secure
a successful Plaintiff’s verdict and use
the verdict to obtain recall of these
products, and whether removal of Mr.

18

Fed. R. Civ. P. 11(c)(2) provides that a motion for
sanction “must be served under Rule 5, but it must not be filed or
presented to the court if the challenged paper, claim, defense,
contention, or denial is withdrawn or appropriately corrected
within 21 days after service or within another time the court sets.”

72a
Appendix C
Shalaby and delays in these proceedings
threaten to result in further injuries and
deaths. In this regard Mr. Shalaby
points out that he already filed a motion
for partial summary judgment for
determination of the defects and liability
as a matter of law very early, on
10/30/17 (dkt. 193), which was ‘stricken’
by Hon. Judge Johnston. Perhaps the
next motion, filed by defendants, was to
remove Mr. Shalaby as counsel from this
case, denial of which is now on appeal
before the Honorable Judge Reinhard,
and which has now resulted in a stay of
about seven months or more, while
another case has since appeared on the
docket alleging another product failure
and property damage of close to
$5million (disclose earlier). Mr. Shalaby
impresses upon the Court that the real
reason the defendants have moved for
the removal of Mr. Shalaby from this
case is because of their awareness that
Mr. Shalaby has the evidence necessary
to show that they knew the subject
products were defective and left them on
the market to cause the deaths and
severe burn injuries reported to this
Court on the various pleadings. Mr.
Shalaby therefore urges the Court to
weigh the perceived impropriety of a

73a
Appendix C
PHV applicant’s failure to disclose that
prior to filing the PHV application, the
applicant had been sanctioned and had
also won an appeal reversing the
sanctions award, versus the impropriety
of a defendant moving to remove a
plaintiff’s counsel because the defendant
is aware the targeted counsel has the
evidence, knowledge, skill, and
unfettered commitment and tenacity
required to obtain a judgment
establishing the product defects and
early knowledge of same by defendants.
[*21] Mr. Shalaby finally brings to the Court’s
attention that the death of Mr. Tran, death of Ms.
Marmont, burn injuries of Mr. Shadbolt in Canada,
and many other severe burn injuries and possible
deaths occurring after the year 2007, were almost
certain to be avoided, had the Court in San Diego
focused its attention on the details of the product
defects before it, instead of taking seriously and
taking as true the ‘false facts’ and contrived evidence
of the defendants and their counsels targeting Mr.
Shalaby personally, while these are now the same
counsels in this action doing the same thing once
again because of the reward of success a decade ago in
the earlier action. The motivation of the defense
counsels in moving to remove Mr. Shalaby as counsel
is therefore the most important consideration. The
admission of Worthington’s counsels before this

74a
Appendix C
Court, whether PHV or as general admissions, should
be carefully scrutinized with equal examination to
determine if those counsels had actual knowledge
that the subject products were defective and had
caused severe burn injuries and deaths years before
Mr. Bailey suffered burn injuries, and had
misrepresented to the contrary and knowingly
inserted grossly untrue defenses on the answer filed
in this action, dkt. 74. In this regard, this counsel
timely served the safe harbor notice of motion and
motion for sanctions on Worthington’s counsels on
2/11/17, immediately after it filed its answer, a copy
of which is attached as Exhibit TR-2, and urges the
Court now to turn to the substance of the product
defects at issue, scrutiny of Worthington’s answer
(dkt. 74) along with scrutiny of the details of the
product defects described on the MSJ (dkt. 193) and
notice served upon Worthington on 2/11/17 with
regard to same (TR-2). The Court’s review of TR-1 will
apprise the Court of the Tran death that could have
been avoided but for the same careless denials of the
product defects asserted on Worthington’s answer.
The other documents cited, if examined by the Court,
will result in this Court’s finding that the active
concealment and denial by Worthington’s California
counsels cannot be disputed. Upon such a finding, no
doubt this Court should revoke the PHV or general
admissions of Worthington’s own California counsels,
Mr. Richard Ergo and Mr. Jason Granskog, and
perhaps go as far as to set an OSC re sanctions, given
that the denials of factual contentions here have

75a
Appendix C
resulted in severe burn injuries and actual deaths for
which these counsels bear significant responsibility.
Mr. Shalaby asks that the Court be
even-handed in its review of the grounds presented
for revocation of Mr. Shalaby’s PHV status. This
even-handed [review] would be achieved by way of a
balanced scrutiny into (1) whether a chain of events
arising out of Mr. Shalaby’s one-time failure to obtain
a ‘wet-signature’ of a client back in 2015 amounts to
an intentional misconduct, and one which warrants
revocation, versus careful consideration of (2) whether
an answer filed by the same counsels that were
involved in the year 2007 ‘failed torch’ proceedings
contain intentional misrepresentations of facts and
denials of existence of defects pertaining to products
which the moving counsels had actual knowledge had
already caused severe burn injuries and deaths long
before filing this action. Clearly the wrongdoing of
significance is the one which has already lead to
deaths and severe injuries, and this is not something
the Court should take lightly at all. The Court’s
scrutiny into the answer, MSJ, and matters set forth
in the sanction safe harbor motion would be
well-warranted under these circumstances.”
The 2018 Show Cause Order directed Attorney
Shalaby to show cause why he should not have his
PHV admission revoked or be otherwise sanctioned
for certain conduct which arose after Magistrate
Judge Johnston’s entry of an order [333] on
defendants' motion to revoke Attorney Shalaby’s pro
hac vice admission and the filing of objections thereto.

76a
Appendix C
The documents Attorney Shalaby seeks to file via this
motion [401] do not go to the matters currently before
the court. The unfiled Rule 11 sanctions motion and
the proceedings in the Tran case are not matters that
relate to Attorney Shalaby’s conduct after the entry of
the order [333] on defendants' motion to revoke
Attorney Shalaby’s PHV admission. Accordingly, the
court denies the motion [401] for leave to file these
documents.
The motion also argues that defendants'
motivation in moving to revoke Attorney Shalaby’s
PHV admission as well as defense counsels' own
misconduct should be considered and balanced
against the chain of events arising from Attorney
Shalaby’s “one-time failure to obtain a ‘wet signature’
of a client back in 2015.” Attorney Shalaby asserts
defendants sought his PHV revocation because
defendants are aware he has “the evidence,
knowledge, skill, and unfettered commitment and
tenacity required to obtain a judgment establishing
the products defects and early knowledge of same by
defendants.” But, again, the matters before the court
are Attorney Shalaby’s actions occurring after the
order [333] on defendants' motion to revoke his PHV
admission. The motion filed by defendants has been
decided. That decision was not to revoke his PHV
admission. The only sanction in that order was the
requirement that the order be attached to any future
PHV application in the Northern District of Illinois.
Attorney Shalaby withdrew his objection to that
order. Also, any asserted misconduct of defendants or

77a
Appendix C
defense counsel is not before the court nor would any
such misconduct be a basis for excusing Attorney
Shalaby’s misconduct. Misconduct does not offset.
[*22] The 2018 Show Cause Order also ordered
Attorney Shalaby to address the statement in his
general bar application that he believed the State Bar
of California only made an inquiry rather than
conducted an investigation of him when previously in
this case he referred to the state bar matter as an
investigation and his request for judicial notice to the
9th Circuit and the documents attached thereto
indicate the matter was an investigation.
The 2018 Show Cause Order set out various
documents in which Attorney Shalaby had referred to
the matter concerning him before the State Bar of
California as an investigation and his statement
made at a hearing before Magistrate Judge Johnston
on March 29, 2018 in which he referred to the matter
as an investigation. The 2018 Show Cause Order also
noted an email from California State Bar Investigator
Pomrantz in which she referred to the matter as the
“ongoing State Bar Investigation No. 15-O-14848.”
Along with his response [384] to the 2018 Show Cause
Order, Attorney Shalaby attached as an exhibit
[384-3] a letter from State Bar of California
Investigator Christian Chisnall dated August 22,
2018 concerning “Case Number: 15-O-14848 A State
Bar Investigation.” The letter states in relevant part:
“The State Bar has completed the investigation of the
allegations of professional misconduct and
determined that this matter does not warrant further

78a
Appendix C
action. Therefore, the matter is closed.” Despite his
own statements and the communications from the
investigators identifying the matter as an
investigation, Attorney Shalaby now maintains the
matter was not an investigation but rather an
“inquiry”, which, as noted in the 2018 Show Cause
Order, is a less serious matter than an investigation.
In his response [384], Attorney Shalaby states:
“Although the State Bar letters use the
word ‘investigation,’ and I myself used
the word on pleadings, I was first
called-upon to distinguish an
‘investigation’ from an ‘inquiry’ on the
general bar application itself. The State
Bar never alleged that I violated any
rules of ethics or rules of professional
conduct. I spoke with Investigator Ms.
Pomrantz directly, likely around June 6,
2016, the date shown on the request for
judicial notice cited by this Court on its
OSC, about two and a half months
before I filed my PHV application (which
was filed 8/28/16). I asked Ms. Pomrantz
why the investigation letter did not cite
any rule of professional conduct or
ethics that had been violated. In
response, Ms. Pomrantz told me the
reason the investigation was initiated
was simply pro forma, but in fact was
more an inquiry than an investigation

79a
Appendix C
on this particular matter. She did not
agree that I engaged in conduct which
warranted imposition of sanctions or a
state bar investigation. I am fairly
certain that she told me that the matter
would ‘continue as an inquiry’ until the
appeal to the Ninth Circuit became
final. I am not clear whether that means
the matter began as an ‘investigation’
and then turned into an ‘inquiry’ after I
won my appeal in February 2016, or if it
was being treated as an inquiry all
along. However, whether characterized
as an ‘investigation’ in form and
substance the point is that the Bar
determined that the matter did not
warrant any disciplinary action of any
kind and closed the case.
My statement [on] the general bar
admission form is that the State Bar
‘investigation’ was reasonably based on
information provided to me by Ms.
Pomrantz and all of the circumstances
surrounding the investigation itself. An
investigation typically includes a
disclosure by the Bar of the Rules of
Professional Conduct which were
allegedly violated, and the charges of
those violations, and in this instance
that never happened. Because the State

80a
Appendix C
Bar never told me that I had violated
any rules of professional conduct or
ethics, and because of Ms. Pomrantz'
explanation above, it remains my belief
that even though the letters used the
word ‘investigation,’ it was substantively
an inquiry.”
[*23] The letter [384-3] from Investigator
Chisnall seems to confirm that the matter before the
State Bar of California was an investigation not an
inquiry. The letter identifies the matter as “A State
Bar Investigation” and states that the “State Bar has
completed the investigation of the allegations of
professional misconduct and determined that this
matter does not warrant further action.” It seems
unlikely State Bar investigators would have
consistently referred to the matter in written
correspondence as an investigation if the matter was,
in fact, an inquiry. However, the court will not
consider the issue of Attorney Shalaby’s statement on
his general bar application characterizing the State
Bar of California matter as an inquiry rather than an
investigation in the court’s determination whether to
revoke Attorney Shalaby’s PHV admission. The court
will leave considerations related to his general bar
application to the executive committee’s consideration
of that application.
A “federal court has the power to control
admission to its bar and to discipline attorneys who
appear before it. While this power ought to be

81a
Appendix C
exercised with great caution, it is nevertheless
incidental to all Courts.” Chambers v. NASCO, Inc.,
501 U.S. 32, 43 (1991) (quotation marks and citations
omitted). The revocation of an attorney’s pro hac vice
status falls within this inherent authority of the
court. Lasar v. Ford Motor Co., 399 F.3d 1101, 1118
(9th Cir. 2005); see also, In re Rimsat, Ltd., 229 B.R.
914, 922 (Bankr. N.D. Ind. 1998) (“revocation of an
attorney’s pro hac vice admission is an available
sanction in response to counsel’s misconduct”). False
statements to the court are a sound basis for revoking
an attorney’s pro hac vice admission, Ryan v. Astra
Tech, Inc., 772 F.3d 50, 63 (1st Cir. 2014) (“[a]nyone
who thinks it important that lawyers not lie to judges
would be surprised if the court had done otherwise.”)
The “whole of abusive action is greater than the sum
of the parts of which it is made.” Fuery v. City of
Chicago, 900 F.3d 450, 454 (7th Cir. 2018). “[T]hese
incremental abuses chip away at the fair
administration of justice and frustrate a trial judge’s
faith that she can rely upon the lawyers before
her—officers of the court—to set forth a fair and
accurate presentation of the facts and law. And for
this reason we leave the evaluation of such abuse to
the discretion of district courts which must manage
their own affairs so as to achieve the orderly and
expeditious disposition of cases.” Id. (quotation marks
and citations omitted).
Attorney Shalaby has misrepresented to this
court the content of Judge Efremsky’s May 8th Order.
He made the misrepresentation in a request for

82a
Appendix C
judicial notice [346] as discussed in the 2018 Show
Cause Order. He also, as discussed above,
misrepresented the contents of the May 8th Order in
his response [384] to the 2018 Show Cause Order.
Attorney Shalaby misrepresented to this court
that Magistrate Judge Johnston had refused to allow
the deposition of Dr. Eagar without expressing any
basis for the denial even though the record shows the
reason was clearly stated more than once. Attorney
Shalaby misrepresented the content of Magistrate
Judge Johnston’s order [362] relating to the turnover
by Mr. Khan of photographs and other work product
by omitting the portion of the order directing the clerk
to forward a copy of the order to Mr. Khan and not
disclosing the clerk’s docket entry that the order had
been sent to Mr. Khan. Attorney Shalaby
misrepresented to this court Magistrate Judge
Johnston’s action concerning the turnover of the
fracture groove information where the record showed
Mr. Khan stated he did not need the information at
that time but probably would need it in the future
and that Magistrate Judge Johnston would require
the turnover if Mr. Khan determined he needed it.
Attorney Shalaby did not file, on behalf of the
plaintiff, any Rule 72(a) objections to any of these
rulings by Magistrate Judge Johnston except the
denial of plaintiff’s third request to depose Dr. Eagar
and that objection was subsequently withdrawn.
[*24] Attorney Shalaby misrepresented to two
other district courts that Magistrate Judge Johnston
was employed by Holland & Knight at the time

83a
Appendix C
Holland & Knight represented defendants in Attorney
Shalaby’s personal action against defendants even
though the record clearly showed Magistrate Judge
Johnston advised Attorney Shalaby that he was no
longer employed at Holland & Knight when one of its
attorneys entered an appearance for defendants in
Attorney Shalaby’s personal case. Attorney Shalaby
concedes he made these false statements without
obtaining and reviewing a transcript of the
proceedings in which he was advised that Magistrate
Judge Johnston’s employment had ceased prior to the
Holland & Knight attorneys appearance in Attorney
Shalaby’s personal case.
In ruling [333] on defendants' motion to revoke
Attorney Shalaby’s PHV admission, Magistrate Judge
Johnston found Attorney Shalaby was not truthful in
his PHV application because he did not disclose the
sanctions imposed by Judge Efremsky and the
Prefiling Order imposed by Judge Battaglia.19
Magistrate Judge Johnston concluded, however, that
the “misrepresentations alone do not justify revoking
his pro hac vice status.” Attorney Shalaby initially
objected [338] to the portion of the ruling requiring
him to attach a copy of the ruling [333] to any future
PHV applications in the Northern District of Illinois
but later withdrew [379] [380] his objection to this

19

United States District Court for the Southern District
of California, No. 11cv68, Dkt # 66, July 27, 2012.

84a
Appendix C
ruling.20However, because defendants also objected to
the ruling, this court, in the 2018 Show Cause Order,
reviewed Magistrate Judge Johnston’s findings and
determined that the Prefiling Order and Judge
Efremsky’s sanctions (though not the fee
disgorgement ordered per section 329(b)(1) of the
bankruptcy code) were required to be disclosed by
Attorney Shalaby in his PHV application. Thus, he
answered falsely when he answered “No” rather than
“Yes” to the question “has the applicant ever been:
censured, suspended, disbarred, or otherwise
disciplined by any court?”
In the order [333], Magistrate Judge Johnston
also expressed “some concern with Mr. Shalaby’s
conduct based on the history of the instant case. The
Court has expressed these concerns in numerous
minute entries and court hearings throughout this
case.” The order also noted concerns raised by Judge
Battaglia and Judge Tuchi (the judge in Peralta
discussed above) concerning Attorney Shalaby’s
conduct in those cases.
Rather than revoking Attorney Shalaby’s PHV
admission, Magistrate Judge Johnston imposed a
lesser sanction, attachment of the order [333] to any
future PHV applications filed in this district.
Magistrate Judge Johnston stated “that judges in the
Northern District of Illinois presented with a motion

20

“A party may not assign as error a defect in the order
not timely objected to.” Fed. R. Civ. P. 72(a).

85a
Appendix C
by Mr. Shalaby to appear pro hac vice should be
forewarned of this history when making their
determination. Each judge should be allowed to make
his or her own determination on whether to grant or
deny pro hac vice status, but should do so after being
fully informed of Mr. Shalaby’s actions in this case
and his history as detailed in this Order.”
Since the entry of this order [333], Attorney
Shalaby, as discussed above, has made additional
false statements to this court and to other courts. The
sanction imposed by Magistrate Judge Johnston has
been ineffective in inducing Attorney Shalaby to be
truthful in his representations to this court and to
other courts. As detailed above, Attorney Shalaby has
misrepresented the content of court orders and
misrepresented facts appearing in the record.
Attorney Shalaby cannot be trusted to accurately
present the facts and law in this case. Therefore,
Attorney Shalaby’s pro hac vice admission in this case
is revoked.
[*25] For the foregoing reasons, defendants'
motion [368] to file a supplemental exhibit is denied.
Attorney Shalaby’s motion [365] to file a surreply is
granted and the surreply [365-1] is deemed filed.
Attorney Shalaby’s motion [387] requesting
confirmation that the requirement for local counsel
for plaintiff to sign all filings made on behalf of
plaintiff does not apply to documents filed concerning
Attorney Shalaby’s PHV admission is granted.
Attorney Shalaby’s motion [401] for leave to file
supplemental documents and a related request to

86a
Appendix C
take judicial notice is denied. Attorney Shalaby’s pro
hac vice admission in this case is revoked.
Defendants' objection [343] to Magistrate Judge
Johnston’s order [333] is denied as moot.
Dealing with Attorney Shalaby’s voluminous
filings and his string of misrepresentations in them
has consumed an excessive amount of the court’s
time. Plaintiff continues to be represented by
Attorney David Chen and local counsel Attorney John
Nelson. The court trusts they will serve the plaintiff’s
interest and present his case effectively. The court
requests Magistrate Judge Johnston schedule a
status conference with attorneys Chen and Nelson
and defense counsel as soon as possible.

Date: 2/01/2019

ENTER:
Philip G. Reinhard
United States District Judge

Electronic Notices. (LC)

87a
Appendix D
No. 19-2369
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
IN RE: Andrew W. SHALABY, Appellant
September 3, 2019
Before
WILLIAM J. BAUER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division
Rebecca R. Pallmeyer, Chief Judge
ORDER
On consideration of appellant Andrew W.
Shalaby’s petition for rehearing en banc, filed August
20, 2019, no judge in active service has requested a
vote on the petition for rehearing en banc, and all
judges on the original panel have voted to deny the
petition for rehearing.
Accordingly, the petition for rehearing en banc
filed by appellant Andrew W. Shalaby is DENIED.

